Theane Evangelis
Direct: +1 213.229.7726
Fax: +1 213.229.6726
TEvangelis@gibsondunn.com

October 9, 2020
VIA ELECTRONIC FILING
Scott S. Harris, Esq.
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Richardson v. Omaha School District, No. 20-402

Dear Mr. Harris:
I am counsel of record for respondent Omaha School District in the above-captioned case.
A petition for a writ of certiorari was placed on the Court’s docket on September 28, 2020, and
a response to the petition is currently due on October 28, 2020.
Pursuant to Supreme Court Rule 30.4, respondent respectfully requests a brief extension of
time to and including December 4, 2020, in which to file a response to the petition. The additional time is necessary because counsel was retained on October 6, 2020 and has extensive
professional commitments during the time when the response to the petition would otherwise
need to be prepared. These difficulties are compounded by the ongoing COVID-19 pandemic,
which has limited counsel’s access to the office and other legal resources. Petitioner does not
oppose the requested extension.
Thank you for your consideration of this request.
Sincerely,

Theane Evangelis
cc:

Shay Dvoretzky, Esq.

